AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 The Department of Energy's Use of
 the Strategic Petroleum Reserve in
 Response to Hurricanes Katrina and
 Rita




 DOE/IG-0747                              December 2006
                                Department of Energy
                                    Washington, DC 20585

                                     December 5 , 2006


MEMORANDUM FOR THE SECRETARY

FROM                      Greg       . Friedman
                          lnspector General

SUBJECJT:                 INFORMATION: Audit Report on "The Department of
                          Energy's Use of the Strategic Petroleu~nReserve in Response to
                          Hurricanes Katrina and Rita"

BACKGROUND

The De!,a~t~nent    of Energy's Strategic Petrole~~m  R~=serve  consists of ~~nderground
caverns currently holding nearly 700 million barrels of crclde oil. The Reserve's primary
energy sec!.~ritymission is to maintain d r a w d v ~ nreadirless to mitigate the impact of a
severe crudt-. oil supply disruption. To achieve this goal, ihe Reserve must be prepared to
pronlp!y restore operations and schedule the flow of crude oil to refineries, even in the
midst or a major disaster. The Reserve sites are located in the heart of the Gulf Coast
region of the United States, an area prone to hurricanes and major storms. ln such an
en\ironnien~,continuity of operations is especially challenging.

In t l u g ~ ~arld
              s t September 2005, Hurricanes Katrina and R ~ t adevastated the Gulf Coas:
region. The hurricanes caused significant damage to petroif.:um industry production
platt'o~.ms.terrriinals, pipelines. and refineries, leaving many facilities inoperable. The
supply levels of gasoline and other ref~nedproducts were seqerely impacted, directly
affecting recovery efforts. Further, petroleum product prices spiked nationwide.
Immediately after learning of Hurricane Katrina's devastating impact, you approved
emergency loan requests from crude oil refiners whose scheduled deliveries had been
disrupted. ln addition, the Pre5ident issued a Finding of a Severe Energy Supply
Intel-ruption, directing the Department to sell oil from the Reserve's stockpile.

Because of the significant ~mpactthe hurr~caneshad on the petroleum industry and the
importance of successfully responding to future energy emergencies, we conducted t h ~ s
audit to determine whether the Slrateg~cPetroleum Reserve met its energy security
mission i n response to Hurricanes Katrina and Rita.

RESULTS OF AUDIT

We found that the Department used the Reserve and its assets with great effectiveness to
address emergency energy needs in the crisis surrounding Katrina and Rita. Despite
being i n the path of the hurricanes' destruction, the Reserve promptly fulfilled requests
for oil from refineries suffering from storm-induced supply shortages. Within four days
of Hurricane Katrina's landfall, oil was sent to requesting refineries. Overall, the Reserve
provided almost 21 million barrels of crude oil to refiners through loans and sales. To
their credit, the Reserve's management and staff reacted magnificently under extremely
difficult circumstances.
Whilc the tindings of our audit were generally positive, we did identify an opportunity to
provide greater assurance that operations coc~ldcontinue in future emergency situations.
Specifically, we Ihund that as a result of the hurricanes, the Reserve's business recovery
capabilities were impaired when mission-essential computer networks at both the primary
and alternate sites were rendered inoperable. The Reserve's primary and secondary
facilities are located within 55 miles of each other. As b a s evident with llurricane
Katrina. both were in Katrina's path and both suffered related service interruptions.
While the alternate computer facility's location -- 5 5 miles northeast of the primary site --
appeared acceptable under most circumstances, the far-reaching impact of Katrina proved
that the proximity of the alternate site to the primary facilities was less than optimal.
This atti-cted the prompt restoration of computer network services vital to continuity of
operations of the Reserve. Given the relative frequency of major hurricanes in the
vicinity of thc Keservc's primary facility, we concluded that management should consider
moving the alternate site to a more remote location. In making this recommendation, we
were mindI'~11of the cost of such a move. Yet, a change in the alternate operations site
could substantially improve the Reserve's ability to respond to future natural disasters and
other emergencies.

During our review, we noted the dedication and perseverance of the Reserve's en~ployees
in lilll?lling the mission under tragic and difficult circumstances. Many of the employees
were personally affected by the disaster, but reported to work not knowing the extent of
the human tragedy or if their personal belongings survived the hurricanes. In fact, almost
700 employees were displaced by the storms and over 120 employees were unable to
reoccupy their homes because of severe damage. In recognition, you awarded the
Reserve the highest honorary award of the Department, the Secretary's Gold Medal, for
outstanding achievement in energy security under the extreme conditions after Hurricane
Katrina.

This audit was conducted as part of a broader effort by my office to identify ways the
Department can improve its emergency response capabilities.

MANAGEMENT REACTION

Management agreed with the recommendations and plans to reevaluate the alternate
operating facility as part of its planning for emergency conditions. We consider
management's comments to be responsive to our recommendations.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Chief of Staff
      Assistant Secretary, Office of Fossil Energy
REPORT ON THE DEPARTMENT OF ENERGY'S USE OF THE
STRATEGIC PETROLEUM RESERVE IN RESPONSE TO HURRICANES
KATRINA AND RITA


TABLE OF
CONTENTS


  Response to Hurricanes Katrina and Rita

  Details of Finding                                1

  Recommendations                                   3

  Comments                                          4


  Appendices

   1. Objective, Scope, and Methodology             5

   2. Other Matters                                 7

   3. Related Audit Reports                         8

   4. Management Comments                           9
RESPONSE TO HURRICANES KATRINA AND RITA

Energy Security   The Strategic Petroleum Reserve (Reserve) met its energy security
Mission           mission during the response to Hurricanes Katrina and Rita.
                  Despite being in the path of the hurricanes' destruction, the
                  Reserve fulfilled immediate requests for emergency oil from
                  refineries suffering from storm-induced supply shortages. Within
                  four days of Hurricane Katrina's landfall, oil was on its way to
                  requesting refineries. The Reserve's total response was almost 21
                  million barrels of crude oil being made available to refiners
                  through loans and sales.

                                           Emergency Loans

                  After the hurricanes, the Reserve immediately responded to
                  industry's request to borrow from the stockpile, providing crude oil
                  to refiners whose scheduled deliveries had been disrupted. The
                  Department of Energy (Department) began receiving requests from
                  industry on August 29, 2005, resulting in the approval of six loans
                  for a total of 9.8 million barrels of oil. Oil deliveries commenced
                  on September 2, 2005, four days after Hurricane Katrina's landfall.
                  Without the loans, the refineries faced severe reductions in
                  processing rates or shutdown of their operations. The loans
                  enabled them to continue refining crude oil into products such as
                  gasoline, heating oil, and jet fuel. Recipients are required to return
                  crude oil to the Reserve under the terms of the loan agreements.
                  By the spring of 2006, all but 1.7 million barrels had been returned
                  to the stockpile. In April 2006, the President directed the
                  Department to defer filling the stockpile due to oil market
                  conditions, and as a result, the Reserve now expects to receive the
                  remaining repayment barrels in 2007.

                                           Competitive Sales

                  The Reserve also delivered petroleum by conducting a competitive
                  sales program. On September 2, 2005, the President authorized
                  and directed the Secretary of Energy to draw down and sell crude
                  oil. On September 6, 2005, the Department issued a Notice of
                  Sale, offering 30 million barrels of crude oil for sale. The
                  competitive sales program was conducted online for the first time
                  using the Crude Oil Sales Offer Program. The Department
                  evaluated the offers received and determined that five companies
                  had submitted acceptable offers for the purchase of 11 million
                  barrels of crude oil. Although deliveries began on September 26,
                  2005, and were originally expected to be completed in October, the
                  arrival of Hurricane Rita along the Gulf coasts of Louisiana and
                  Texas on September 24, 2005, caused significant damage to




Page 1                                                             Details of Finding
                      refineries, terminals, and distribution systems that hindered
                      companies' abilities to take delivery of the oil. Final deliveries
                      were made on January 4, 2006.

Alternate Operating   While the Reserve responded to immediate requests for emergency
Facility              oil, we identified an opportunity to improve operations during
                      future emergency responses. The Reserve successfully completed
                      its mission despite the fact that both the primary and alternate
                      computer networks became inoperable. It was our judgment that
                      the effectiveness of future emergency responses could be further
                      assured if the alternate operating facility was located in an area less
                      likely to be impacted if hurricanes strike the Reserve's primary
                      operating facility in New Orleans.

                                            Continuity of Operations

                      The Reserve's primary operating facility in New Orleans was
                      evacuated early during Hurricane Katrina's timeline. However, the
                      Reserve could not use its alternate computer facility at the Stennis
                      Warehouse in Mississippi when Hurricane Katrina's landfall
                      required it to be evacuated as well. In accordance with Federal
                      requirements, the Reserve's Continuity of Operations Plan
                      contained the plans, procedures, and responsibilities to ensure the
                      performance of essential functions in the event of an emergency.
                      The Stennis Warehouse, located about 55 miles east of New
                      Orleans at the Stennis Space Center in Mississippi, is designated as
                      the Reserve's alternate operating facility. While the Stennis
                      Warehouse is primarily used to maintain drawdown equipment, it
                      also serves as an alternate Emergency Operations Center, a data
                      systems "warm" site with redundant network restoration
                      capabilities, and an alternate business recovery worksite with a
                      network of over 100 dedicated workstations. Hurricane Katrina's
                      direct hit on the Stennis Warehouse prevented it from being fully
                      utilized for this purpose and forced the Reserve to reestablish its
                      computer network capabilities elsewhere.

                                                  Site Selection

                      When selecting alternate operating facilities, Federal Preparedness
                      Circular 65 states that organizations should perform an all-hazard
                      risk assessment for any facility considered for Continuity of
                      Operations use. This assessment should consider the distance of
                      alternate operating facilities from the primary facility and from the
                      threat of natural disasters such as hurricanes. However, Strategic
                      Petroleum Reserve planning documents indicated that the alternate
                      operating facility was included as part of a larger plan to relocate



Page 2                                                                  Details of Finding
                  the Reserve's drawdown equipment from its existing storage site, a
                  warehouse in New Orleans, to the Stennis Space Center in
                  Mississippi. Although examples of cost-savings were included as
                  justification for the plan, we could not locate any documentation to
                  support a risk analysis examining the impact of the distance
                  between the alternate and primary operating facilities and possible
                  consequences in the event of a hurricane. Thus, the use of the
                  Stennis Warehouse as the alternate operating facility was not, in
                  our view, fully justified.

                  Federal Preparedness Circular 65 also states that alternate
                  operating facilities must be reevaluated for suitability and
                  functionality to ensure that alternate operating facilities continue to
                  meet agency needs. In March 2006, the Reserve identified 66
                  recommendations in response to lessons learned during the
                  hurricanes. Although the Reserve plans to conduct a feasibility
                  study on the cost of establishing another "warm" site to enable
                  network redundancy in the absence of both the Stennis Warehouse
                  and New Orleans facility capabilities, there were no plans to
                  reevaluate Stennis as an alternate operating facility.

                                           Future Emergencies

                  While the impact of Katrina and Rita was exceptional, hurricanes
                  are fairly routine in the Gulf Coast region. Based on the most
                  recent experience, the Reserve may not be able to rely on the
                  alternate operating facility capabilities at the Stennis Warehouse if
                  another hurricane hits the Gulf Coast region. Although the
                  Reserve took commendable action during Hurricanes Katrina and
                  Rita to reestablish computer network capabilities when both the
                  primary and alternate computer facilities became inoperable, a
                  reevaluation of the alternate operating facility site selection is
                  warranted.


RECOMMENDATIONS   To improve the Strategic Petroleum Reserve's continuity planning
                  and capability to continue essential functions during emergencies
                  such as hurricanes, we recommend that the Project Manager,
                  Strategic Petroleum Reserve:

                      1. Reevaluate the location of the designated alternate
                         operating facility, factoring in the distance from the
                         primary operating facility and the threat of a hurricane
                         impacting both locations; and,




Page 3                                                             Recommendations
                        2. Based on the results of the evaluation, take appropriate
                           actions regarding the location of the alternate operating
                           facility.


MANAGEMENT AND     Management agreed with the recommendations and plans to
AUDITOR COMMENTS   reevaluate its alternate operating facility. Although the Stennis
                   facility suffered only minor damage from Hurricane Katrina, the
                   loss of communications connectivity rendered the computer
                   network inaccessible. Therefore, management agreed that it is
                   entirely appropriate to reevaluate the role of the Stennis facility in
                   its planning for emergency conditions.

                   Management's comments are responsive to our recommendations
                   and are included in their entirety in Appendix 4.




Page 4                                           Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the Strategic
              Petroleum Reserve (Reserve) met its energy security mission
              during the response to Hurricanes Katrina and Rita.


SCOPE         The audit was performed between January and October 2006.
              Audit work was conducted at the Department of Energy
              (Department) Headquarters in Washington, D.C.; the Project
              Management Office in New Orleans, Louisiana; the Bryan Mound
              and Big Hill storage sites in Texas; the Bayou Choctaw and West
              Hackberry storage sites in Louisiana; and, the Stennis Warehouse
              in Mississippi.


METHODOLOGY   To accomplish the audit objective, we:
                   •   Determined the Reserve's energy security mission and
                       assessed whether the mission was met during the
                       response to the hurricanes;

                   •   Reviewed and analyzed loans and sales transactions;

                   •   Analyzed the Reserve's Continuity of Operations Plan
                       and identified the designated primary and alternate
                       operating facilities;

                   •   Examined Stennis Warehouse planning and justification
                       documents;

                   •   Determined the federal requirements for Continuity of
                       Operations planning;

                   •   Reviewed the lessons learned that were compiled as a
                       result of the Reserve's response during the hurricanes;
                       and,

                   •   Held discussions with the Department and contractor
                       personnel.

              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at




Page 5                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    the time of our audit. We did not rely on computer processed data;
                    therefore, we did not conduct reliability assessments on the data.
                    Finally, we assessed the Department's compliance with the
                    Government Performance and Results Act of 1993 and found that
                    performance measures specifically related to the operational
                    readiness of the Reserve had been established.

                    Management waived the exit conference.




Page 6                                         Objective, Scope, and Methodology
Appendix 2

                                      OTHER MATTERS


Handling of Classified Materials

In the aftermath of Hurricane Katrina, the Strategic Petroleum Reserve (Reserve) did not
adequately secure classified matter or report the security incident to the Department of Energy
(Department) Headquarters in a timely manner. Shortly after the hurricane, it became
apparent that the facilities housing the classified materials would remain uninhabitable for an
extended period of time, and the decision was made to relocate the materials to an alternate
Department site. During the relocation, one box of classified documents became separated
and was temporarily left unattended in an unclassified area at a different Department location.
According to Reserve personnel, the team recovering the classified materials faced difficult
and potentially dangerous conditions, including possible criminal activities in the area and the
lack of electricity in the building. While these adverse conditions most certainly contributed
to the mishandling, the Reserve did not have procedures in place to relocate classified
materials during such emergencies. While it cannot be said with absolute certainty, it appears
that there was no compromise of classified information.

During our review, the Reserve updated its Classified Matter Emergency Plan to include
relocating procedures and provided the required reporting documentation of the incident to
Department Headquarters. In addition, the Department's Office of Special Operations is
conducting an inquiry and will provide a report of its findings to the Reserve. Therefore, we
did not pursue additional audit work in this area.




Page 7                                                                            Other Matters
Appendix 3

                                 RELATED AUDIT REPORTS


Office of Inspector General Reports

    •    Follow-Up Review of The Department of Energy's Response to Hurricanes Katrina and
         Rita (DOE/IG-0733, July 2006). The follow-up review found that the Department of
         Energy (Department) had made significant progress toward implementing prior Office
         of Inspector General recommendations to enhance its Emergency Support Function-12
         mission capabilities. Specifically, the Department clarified communications processes,
         addressed responder equipment needs, and augmented staffing levels. The review also
         found that the Department could improve its efforts to identify emergency response
         assets in advance of events such as natural disasters.

    •    The Department of Energy's Response to Hurricanes Katrina and Rita (DOE/IG-0707,
         November 2005). The review found that the Department met its responsibilities under
         the National Response Plan by taking aggressive actions to restore energy systems in
         response to Hurricanes Katrina and Rita. While the Department's response mechanism
         was effective, the review identified opportunities to improve the Department's response
         in future Emergency Support Function-12 missions. These opportunities include:
         streamlining communications, leveraging Department assets, adequately provisioning
         emergency response teams, and determining appropriate emergency support staffing
         levels.

    •    The Department's Continuity Planning and Emergency Preparedness (DOE/IG-0657,
         August 2004). This report concluded that five field sites had not developed
         comprehensive plans to continue essential functions during an emergency and had not
         corrected a number of weaknesses identified during prior emergency preparedness
         exercises. Specifically, these sites had not fully identified essential functions or
         alternate facilities in case of an emergency. Additionally, the Department did not
         specifically require sites to validate the effectiveness of corrective actions for addressing
         recognized emergency preparedness weaknesses or to share complex-wide lessons
         learned about common problems. As a result, the Department may face increased risks
         to its operations, employees, and surrounding communities during an emergency
         situation.




Page 8                                                                     Related Audit Reports
Appendix 4




Page 9       Management Comments
                                                                    IG Report No. DOE/IG-0747

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
